APPENDIX

i
APPENDIX TABLE OF CONTENTS
Page
Appendix A Opinion in the United States Court
of Appeals for the Seventh Circuit
(April 9, 2021) ................................. App. 1
Appendix B Order in the United States District
Court for the Western District of
Wisconsin (April 14, 2020) ........... App. 25
Appendix C Opinion and Order in the United
States District Court for the Western District of Wisconsin (March
31, 2020) ....................................... App. 28
Appendix D Affidavit of William (Bill) Osmulski (August 20, 2019) ................... App. 54
Appendix E Affidavit of Brett Healy (August
20, 2019) ....................................... App. 57
Appendix F Affidavit of Melissa Baldauff (September 17, 2019) ........................... App. 59

App. 1
-----------------------------------------------------------------------

APPENDIX A
-----------------------------------------------------------------------

United States Court of Appeals
For the Seventh Circuit
No. 20-1814
(Filed April 9, 2021)
)
)
)
Plaintiff-Appellant, )
)
v.
)
TONY EVERS, in his official capacity
)
as Governor of the State of Wisconsin,
)
Defendant-Appellee. )
JOHN K. MACIVER INSTITUTE
FOR PUBLIC POLICY, INC., et al

APPEAL FROM THE
UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WISCONSIN
[Hon. James D. Peterson, Chief Judge]
Before
Manion, Rovner, and Scudder, Circuit Judges
Counsel: For JOHN K. MACIVER INSTITUTE FOR
PUBLIC POLICY, INC., WILLIAM OSMULSKI,
Plaintiffs-Appellants: Daniel R. Suhr, Attorney, Jeffrey
M. Schwab, Attorney, LIBERTY JUSTICE CENTER,
Chicago, IL.

App. 2
For TONY EVERS, in his official capacity as Governor
of the State of Wisconsin, Defendant-Appellee: Gabe
Johnson-Karp, Attorney, Karla Z. Keckhaver, Attorney,
OFFICE OF THE ATTORNEY GENERAL, Madison,
WI.
ROVNER, Circuit Judge. Two reporters from
the John K. MacIver Institute for Public Policy, Inc.,
alleged that they were denied access to a press
event held by Wisconsin Governor Tony Evers’ office
based on the viewpoint espoused by the organization.
Because we have found no evidence of viewpoint
discrimination under any First Amendment test with
which we might view the claim, we affirm the district
court’s grant of summary judgment for Governor
Evers.
I.
The importance of a free press to our founders was
memorialized in the First Amendment which prohibits
the government from abridging the freedom of press,
which now, of course, encompasses all forms of media.
See U.S. Const. amend. I. Thomas Jefferson stated,
“Were it left to me to decide whether we should have
a government without newspapers, or newspapers
without government, I should not hesitate a moment
to prefer the latter.” We therefore delve into any case
alleging suppression of that core right with seriousness and care. Like all rights enumerated in the Bill of
Rights, however, it is not absolute. And allegations of

App. 3
suppression of the media must be sufficiently alleged
to withstand a ruling on summary judgment.
MacIver describes itself as “a Wisconsin think
tank that promotes free markets, individual freedom,
personal responsibility and limited government.” R. 9
at 1. MacIver Institute sponsors what the plaintiffs
call a “separately branded” MacIver News Service with
its own Twitter account, its own logo, and its own tab
on the MacIver Institute’s website. At the time of the
facts of this case, William Osmulski was a reporter and
a news director for MacIver News Service. Matt Kittle
was also a reporter for MacIver News Service. We refer
to the plaintiffs collectively as MacIver.
Governor Evers, from time to time, holds events
during which he answers questions from members of
the press. Some of these events are open to any
member of the public, and others are limited to subsets
of the media of varying size. The Governor’s communications department maintains a media advisory list
that it uses to notify members of the media of various
events. The original version of the media list was based
on a version used during Governor Evers’ campaign
and used neutral selection criteria such as newspaper
circulation, radio listenership, and TV viewership. In
June 2019, after MacIver’s counsel sent a letter to
the Governor demanding fair and equal treatment,
the Governor’s Office of Legal Counsel distributed a
memorandum providing more substantial guidance
for determining how, going forward, media would be
granted access to the Governor’s exclusive or limitedaccess events. The memorandum points out that the

App. 4
Governor’s office faces logistical and security concerns
that prevent unlimited access to press events. R. 15-1.
After that it enumerates a non-exhaustive list of factors for the communications department to consider
when deciding whether to include any given media
outfit on the list, noting that the “most important consideration is that access is based on neutral criteria.”
Id. Those factors are as follows:
1. Is the petitioner employed by or affiliated with
an organization whose principal business is news
dissemination?
2. Does the parent news organization meet the
following criteria?
a. It has published news continuously for at
least 18 months, and;
b. It has a periodical publication component
or an established television or radio presence.
3. Is the petitioner a paid or full-time correspondent, or if not, is acting on behalf of a studentrun news organization affiliated with a Wisconsin
high school, university, or college?
4. Is the petitioner a bona fide correspondent of
repute in their profession, and do they and their
employing organization exhibit the following characteristics?
a. Both avoid real or perceived conflicts of
interest;
b. Both are free of associations that would
compromise journalistic integrity or damage
credibility;

App. 5
c. Both decline compensation, favors, special
treatment, secondary employment, or political
involvement where doing so would compromise journalistic integrity; and
d. Both resist pressures from advertisers,
donors, or any other special interests to influence coverage.
5. Is the petitioner or its employing organization
engaged in any lobbying, paid advocacy, advertising, publicity or promotion work for any individual, political party, corporation or organization?
Id. These factors were adapted from established
standards used by the Wisconsin Capital Correspondents Board and the United States Congress, and
allow for the inclusion of over 780 e-mail contacts. Id.
at n.1 & R. 15-2. The MacIver News Service does not
meet these criteria although it is currently credentialed by the Wisconsin State Legislature. According to
the Governor, MacIver is not included on the Governor’s media advisory list because the communications
department determined that the MacIver Institute
“is not principally a news organization” and “their
practices run afoul of the neutral factors” set forth in
the memorandum. R. 15 at 6.
The Governor’s office describes its press events as
falling into one of four categories: public events, pressexclusive events, press briefings, and one-on-one interviews. Public events are, as the name suggests, open
to the entire public. For example, Governor Evers
appeared at the opening of the Wisconsin State Fair in
2019, and hosted multiple budget listening sessions

App. 6
across the state in spring 2019. These events were open
to any member of the public or press who wished to
attend. Sometimes these events include a period of
time during which the press may ask questions (what
the Governor’s office calls “press avail”), but there is no
limitation on who may attend. In addition to these
public events, there are other ways in which the
general public, including MacIver, may access news
and information from the Governor’s office. MacIver, or
any member of the public, may follow the Governor’s
feed on social media and sign up for press releases.
MacIver does not allege that it has been denied entry
or access to any public events, or public media sources.
The second category of press events consists of
limited access press conferences and other pressexclusive events to which only some members of the
press are invited. These events are not open to the
general public and press attendance is limited by time,
space, and security concerns, as well as other venuespecific factors. For example, when the Governor
toured the University of Wisconsin – Milwaukee School
of Freshwater Sciences, only a limited number of
journalists were invited on the tour which was followed
by a press avail time. The Governor’s communications
department uses the media advisory list to notify
members of the media of these limited-access events,
and invitees who wish to attend must RSVP so that
the Governor’s office and security personnel can prepare accordingly. Depending on the type of event, the
Governor’s office may also reach out to members of
the press with specific interests, such as inviting a

App. 7
science-focused journal to join the tour of the School of
Freshwater Sciences.
The third category includes press briefings, which
are limited to an even smaller group of invited
members of the press. Historically, these have been
held as a courtesy to members of the press to provide
additional background before the release of large-scale
initiatives. These events are off the record – meaning
that the information is not intended for public release
or as an official representation or statement. Some of
the materials provided at a press briefing might be
subject to embargoes. Finally, in a fourth category, the
Governor may at times grant a one-on-one interview.
These are not at issue in this case.
On February 28, 2019, MacIver News Service reporters Osmulski and Kittle got wind of an invitationonly press briefing to be held later that afternoon
during which the Governor’s office would preview the
major initiatives in his budget address scheduled for
that same evening. The pair, seeming to understand
that this was a “by invitation” event, sent an RSVP to
the Governor’s staff the day of the event, but did not
receive a response before the briefing began. As they
attempted to enter the conference room, they were
informed that they were not on the RSVP list and thus
could not be admitted. They were told they could talk
to the Governor’s Deputy Chief of Staff, Melissa
Baldauff, but she was not available at that moment
to hear their appeal. Because this was a small-scale
event, hundreds of other journalists and media personnel were also not invited to attend. For example,

App. 8
Jason Stein, a journalist formerly with the Milwaukee
Journal Sentinel and Wisconsin State Journal sent an
email to the Deputy Chief of Staff asking to attend, but
she denied him admission as he was no longer affiliated with a news organization and instead worked for
the Wisconsin Policy Forum, an organization that
describes itself as a nonpartisan, independent research
organization. In fact, for small-scale events such as the
press briefing on February 28, 2019, the communications department layers onto the usual media advisory
list the additional requirement that the organization
have a readership or viewership justifying inclusion
for the particular event.
The MacIver reporters eventually learned that
their exclusion from the February 28 event was not
an anomaly. The communications department’s media
advisory list did not include them and thus they would
not receive invitations to non-public press events. In
response to their initial letter demanding to be
included on the list, the Governor’s legal counsel responded that the Governor’s communications department permits “some journalists to limited-access
events, such as exclusive interviews, on a case-by-case
basis using neutral criteria, namely newspaper circulation, radio listenership, and TV viewership.” R. 7-5.
Shortly after that, MacIver sent a public records
request asking for, among other things, the criteria
used to determine which journalists would be allowed
to access briefings. On the heels of fulfilling MacIver’s
records request for the media advisory list, on June 26,

App. 9
2019, the Governor’s office issued its neutral criteria
memorandum described above.
MacIver sued the Governor claiming that (1) it
had been denied equal access to certain events and
press emails in violation of the First Amendment; (2)
the Governor discriminated against MacIver based on
its viewpoint in violation of the First Amendment; and
(3) the Governor denied MacIver equal protection of
the laws under the Fourteenth Amendment by denying equal access to those events and e-mails. MacIver
sought an order declaring its exclusion unconstitutional and ordering the Governor to include MacIver
in the future. MacIver moved for a preliminary injunction on August 20, 2019, seeking an order requiring Governor Evers to invite MacIver journalists
to “generally available press briefings and events and
lists announcing such events.” R. 6 at 1. MacIver did
not define what it meant by “generally available press
briefings.” After the decision had been pending for six
months, MacIver moved, pursuant to Federal Rule of
Civil Procedure 65(a)(2), to consolidate the decision on
the preliminary injunction with a decision on the
merits, affirming that all necessary evidence had
already been filed with the court. The district court
denied MacIver’s motion for a preliminary injunction,
but permitted the plaintiffs ten days to demonstrate
why the court should not grant summary judgment in
favor of the defendants. On April 14, 2020, after
rejecting MacIver’s request to file a renewed motion
for summary judgment, the court granted summary
judgment in favor of Governor Evers. The district court

App. 10
concluded that the press conferences were non-public
fora and that the criteria that the Governor had used
to accept or exclude media were both reasonable and
viewpoint neutral. We review the district court’s grant
of summary judgment de novo, construing all reasonable inferences in the light most favorable to MacIver.
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 255
(1986).
II.
The amount of access to which the government
must give the public for First Amendment activities,
and the standards by which a court will evaluate
limitations on those rights, depends on the nature of
the forum at issue. See Perry Educ. Ass’n v. Perry Local
Educators’ Ass’n, 460 U.S. 37, 44 (1983). Streets, sidewalks and parks, and the quintessential soap box in
the public square fall on one end of the spectrum. We
call these traditional public fora. We have the least
tolerance for restrictions on First Amendment freedoms in those settings, and the state may only regulate
content if it can show that the regulation is necessary
to serve a compelling interest and that it is narrowly
drawn to achieve that end. Id. at 45. The government
may regulate the time, place, and manner of the
expression where those regulations are narrowly
tailored to serve a significant governmental interest
and where ample alternative channels of communication remain open. Id. There is no question that a
traditional public forum is not at issue in this case, but

App. 11
it serves as an important marker of one end zone of
First Amendment forum analysis.
The same prohibitions and tests apply to designated public fora – public property that the state has
opened for members of the public to use as a place for
expressive activity. Id. at 45-46. A designated public
forum occurs only where the government intends to
make the property available to the general public and
not simply when it grants access to one individual or
even several individuals or groups. Arkansas Educ.
Television Comm’n v. Forbes, 523 U.S. 666, 678 (1998).
The government does not create a designated public
forum where it does no more than reserve access to
the forum to a particular group of speakers. Id. at 679.
Requiring permission, limiting access, and having
“extensive admission criteria” as the state does here
through the advisory list and invitation and RSVP
process, are signs that the government has not created
a designated public forum. Arkansas, 523 U.S. at 67980; Cornelius v. NAACP, 473 U.S. 788, 804-06 (1985).
In short, by inviting a limited number of journalists to
its press conferences, the Governor’s office has not
created a designated public forum.
Finally, the third category describes non-public
fora, where the government controls public property
which is not, by tradition or designation, a forum for
public communication, and is open only for selective
access. Perry, 460 U.S. at 48. “[T]he First Amendment
does not guarantee access to property simply because
it is owned or controlled by the government.” U.S.
Postal Serv. v. Council of Greenburgh Civic Ass’ns, 453

App. 12
U.S. 114, 129 (1981). The government, like other private property holders, can reserve property for the use
for which it was intended, “as long as the regulation on
speech is reasonable and not an effort to suppress
expression merely because public officials oppose the
speaker’s view.” Perry, 460 U.S. at 46. When the
government limits participation only to “appropriate”
participants or has extensive admission criteria, it has
not created a public forum. Cornelius, 473 U.S. at 80405. And so for example, if a school opens its mailboxes
to a union based on its status as the exclusive bargaining unit of the teachers, and not based on its
viewpoint, it has not created a public forum and is
not constitutionally obliged to allow access to any
organization which wishes to have it. Perry, 460 U.S. at
48-51. And when the federal government opened its
Combined Federal Campaign to allow non-profits to
receive charitable donations from federal employees
it did not create a public forum merely by allowing
approximately 237 organizations (out of approximately 850,000 tax-exempt charities) to participate in
the program. Cornelius, 473 U.S. at 804-05. “Control
over access to a nonpublic forum can be based on
subject matter and speaker identity so long as the
distinctions drawn are reasonable in light of the purpose served by the forum and are viewpoint neutral.”
Id. at 806.
The plaintiffs in this case want to attend a limitedaccess press conference – an event that is not open to
the public and not held on government property
dedicated to open communication. See Perry, 460 U.S.

App. 13
at 45-46. These limited-access press conferences are
open only to journalists who meet the content-neutral
criteria, and then, only the limited number of reporters
who can be accommodated after taking into account
space constraints and security concerns. MacIver
wants access to a non-public forum – one to which the
government may regulate access provided the regulations are reasonable and “not an effort to suppress
expression merely because public officials oppose the
speaker’s view.” Id. at 46. The Governor’s “decision to
restrict access to a nonpublic forum need only be
reasonable; it need not be the most reasonable or the
only reasonable limitation.” Cornelius, 473 U.S. at
808.1
We find that the Governor’s media-access criteria
are indeed reasonable and not an effort to suppress
MacIver’s expression because of its viewpoint. The
Governor contends that its criteria are intended to
consider limited space constraints, address security
concerns, and ensure that those in attendance will
maximize the public’s access to newsworthy information, and be more likely to abide by professional
journalistic standards such as honoring embargoes
and off-the-record communications. The resulting list
1

The Governor asserts that the standard applicable to nonpublic fora is the most demanding one that might apply and
suggests that, in fact, the Governor’s press events could be
classified as either a proprietary function or government speech
to which only rational basis review applies. We think the nonpublic forum analysis is the appropriate one as applied to the
facts of this case involving an invitation-only, limited-access press
event.

App. 14
of qualified media personnel includes a wide variety of
news organizations and journalists from across the
state and nation. The first three of the criteria listed
in the memorandum are reasonably related to the
viewpoint-neutral goal of increasing the journalistic
impact of the Governor’s messages by including media
that focus primarily on news dissemination, have some
longevity in the business, and possess the ability to
craft newsworthy stories. The list prioritizes access by
journalists whose reporting will reach wider audiences, while also allowing room for smaller media
outlets (such as tribal publications). The criteria listed
in numbers four and five of the memorandum are
reasonably related to the viewpoint-neutral goal of
increasing journalistic integrity by favoring media
that avoid real or perceived conflicts of interest or
entanglement with special interest groups, or those
that engage in advocacy or lobbying. Similar standards
are also used by other governmental bodies such as the
United States Congress. There is nothing inherently
viewpoint-based about these criteria, and MacIver has
not provided any evidence that the Governor’s office
manipulates these neutral criteria in a manner that
discriminates against conservative media.
In its fact section, MacIver asserts that it viewed
the media advisory list as confirmation that its exclusion was ideologically motivated, but it offers no
support or explanation for that factual assertion. In
fact, the list includes media outlets traditionally
viewed as conservative leaning such as the Washington Times, Wall Street Journal, Fox News, and

App. 15
Washington Examiner, as well as those viewed as
liberal leaning such as the Capitol Times, New York
Times, and Huffington Post. MacIver argues that the
list of included conservative media outlets is not
relevant as they are national outfits with limited local
presence and unlikely to cover the Governor’s events,
but the inclusion of a broad range of media outlets
on both sides of the political spectrum certainly diminishes any claim that the list is based on political
ideology. Moreover, Wisconsin politics and policy are
frequently the subject of national news media, as we
saw during the 2020 elections.
MacIver has not provided sufficient factual support in the record demonstrating that the Governor
discriminated against MacIver on the basis of its viewpoint, rather than for the stated reason that “their
practices ran afoul of the neutral factors.” R. 15 at 6.
MacIver does not point to any other local conservative
media that meet the access criteria but were excluded.
In fact, the Governor’s office also excluded the Wisconsin Policy Forum, a liberal think tank, from the
media list. MacIver attempts to distinguish itself from
the Wisconsin Policy Forum, but fails to offer any record evidence. The Governor’s office determined that
the MacIver News Service made “no effort to distinguish itself from the overall organization mission” of
the MacIver think tank which promotes free markets,
individual freedom, personal liberty, and limited
government. R. 15 at 6. There is no evidence in the
record, for example, to support the claim that MacIver’s News Service is actually, rather than merely

App. 16
nominally, separate from the MacIver Institute. Pointing the court to structural differences on its web-site
along with other non-record evidence and evidence
gleaned from the internet does not suffice. MacIver’s
other naked assertions of bias are also unsupported by
references to the record. District courts cannot make
rulings on summary judgment based on evidence not
in the record. Pickett v. Sheridan Health Care Ctr., 664
F.3d 632, 648 (7th Cir. 2011). Moreover, the district
court found that none of MacIver’s comparisons were
apt, and we find no reason to disturb the district court’s
more specific fact findings about these comparisons. D.
Ct. Op. at 15-18, R. 30 at 15-18.
MacIver disagrees not just with this outcome, but
with the use of forum analysis at all. Forum analysis,
it argues, is a “freedom of speech doctrine, governing when a private speaker has a right to speak on
government property.” MacIver Brief at 9. Instead, it
proposes that the court apply the highest level of
scrutiny to MacIver’s exclusion because the MacIver
reporters are protected under the freedom of press
clause of the First Amendment. But forum analysis
is not merely about who has the right to speak on
government property. It also addresses who has the
right of access to government property to engage in
various expressive pursuits – whether that expressive
pursuit is leaf-letting teachers, soliciting charitable
donations, wearing political buttons at a polling place,
or gathering information for news dissemination. See,
e.g., Perry, 460 U.S. at 40-41; Cornelius, 473 U.S. at 797;
Minnesota Voters All. v. Mansky, 138 S. Ct. 1876, 1885

App. 17
(2018). After all, all of these are forms of expressive
activity. And the amount of access and freedom that
the government must give to someone in pursuit of an
expressive activity depends on the forum (and also the
time and manner).
MacIver’s proposed “equal access” framework is
really an argument that any restriction on someone
acting as a member of the press must be subject to
strict scrutiny. And this argument fails for several
reasons, but the first is that reporters are not cloaked
with automatic “strict scrutiny protection” merely
because they are members of the press. “The First
Amendment does not guarantee the press a constitutional right of special access to information not
available to the public generally.” Branzburg v. Hayes,
408 U.S. 665, 684 (1972); see also Dahlstrom v. SunTimes Media, LLC, 777 F.3d 937, 946 (7th Cir. 2015)
(“the First Amendment provides no special solicitude
for members of the press.”). “The right to speak and
publish does not carry with it the unrestrained right to
gather information.” Zemel v. Rusk, 381 U.S. 1, 17
(1965). Neither the First Amendment nor the Fourteenth Amendment grants the media a “special right
of access to [governmental buildings or information]
different from or greater than that accorded the public
generally.” Houchins v. KQED, Inc., 438 U.S. 1, 16
(1978). Members of the press are routinely excluded
from places that other members of the public may not
access such as grand jury proceedings, Supreme Court
and appellate court conferences, the meetings of
other official bodies gathered in executive session, the

App. 18
meetings of private organizations, and non-public
crime scenes, among others. See Branzburg, 408 U.S.
at 684-85. We can imagine the havoc that might ensue
if government entities could not exclude members of
the press from any non-public part of a government
building – private offices, meeting rooms, government
laboratories – without demonstrating that the restriction is necessary to serve a compelling interest and
narrowly drawn to meet that interest.
MacIver’s argument that the First Amendment
provides a guarantee of “equal access” among members
of the media rests on cases that pre-date modern forum
analysis or cases with such unique facts as to have no
relevance here. It is true that the Second Circuit in
1977 stated that “once there is a public function, public
comment, and participation by some of the media, the
First Amendment requires equal access to all of the
media or the rights of the First Amendment would
no longer be tenable.” Am. Broad. Companies, Inc. v.
Cuomo, 570 F.2d 1080, 1083 (2d Cir. 1977). But in that
case a mayoral campaign blocked access to one of three
major networks that existed at the time, ABC, while
allowing the other two, NBC and CBS. (The lack of
access resulted from a labor dispute). It was the
resulting inequity between the three equal networks
that the court sought to remedy, and thus it explained,
“[i]n the event that CBS and NBC refuse to either cross
the picket line or have their managerial crew operate,
then the injunction will not be operative because that
would result only in ABC getting what we might call
in the vernacular a ‘scoop’ which is not our intention.

App. 19
In other words, we want the networks to be on a
par. . . .” Id. at 1084. In addition to pre-dating Perry
and Cornelius, the facts of the ABC case are too far
afield. In the ABC case, one of three undisputedly
equivalent broadcasting companies was excluded from
coverage without any neutral criteria guiding the
decision to exclude it. Id. at 1083-84. Likewise, Sherrill
v. Knight, also predates modern forum analysis, but in
any event articulates what we already know: a government cannot deny a press pass to an individual
reporter based on an alleged but unarticulated vague
security concern where there are no established
neutral criteria for granting security access. Sherill v.
Knight, 569 F.2d 124, 130 (D.C. Cir. 1977). The postPerry cases MacIver cites are just too far off the mark
factually to be of any help to MacIver. In Anderson, a
court issued a protective order that prohibited the
dissemination of all information in a pending case to
all media outlets save for one given exclusive access.
Anderson v. Cryovac, Inc., 805 F.2d 1, 9 (1st Cir. 1986).
And in the Huminski case, the court faced the difficult
challenge of balancing First Amendment access to
the courtroom by a self-titled “citizen reporter” who
sparked security concerns by parking a van in the
courthouse parking lot with posters containing veiled
threats to a judge. Huminski v. Corsones, 386 F.3d 116,
122-28 (2d Cir. 2004), as amended on reh’g, 396 F.3d 53
(2d Cir. 2005). We could continue distinguishing these
cases, but none of these out-dated, or out-of-context (or
out-of-circuit) cases provide any help.

App. 20
MacIver implores us to look to Minneapolis Star
Tribune and Arkansas Writer’s Project as two cases
that it argues forbid the state from distinguishing
between members of the press. Minn. Star & Tribune
Co. v. Minn. Comm’r of Revenue, 460 U.S. 575 (1983);
Ark. Writers’ Project, Inc. v. Ragland, 481 U.S. 221
(1987). But these cases reinforce the Governor’s argument by concluding that states can subject the press
to generally applicable regulations without offending
the First Amendment. Minn. Star & Trib., 460 U.S. at
581 (“It is beyond dispute that the States and the
Federal Government can subject newspapers to generally applicable economic regulations without creating constitutional problems.”); Ark. Writers’ Project,
481 U.S. at 228 (same). The burden imposed on the
press in Minneapolis Star Tribune, was not a generally
applicable regulation, but rather a tax which singled
out the press over other industrial producers by taxing
ink and paper but not other industrial component
products. Id. at 584, 591. In Arkansas Writer’s Project,
it was a tax exemption based on the content of the
written media. Ark. Writers’ Project, Inc., 481 U.S. at
229. In short, the court applied strict scrutiny, not
simply because the plaintiffs were members of a free
press, but because the press in those cases were being
subject to differential treatment, and in the case of the
Arkansas Writers’ Project, differential treatment based
on content. Here, a rule of general application applies
to MacIver: in situations where the state does not open
its governmental property to the general public, those
who wish to attend functions in state facilities must
be invited based on reasonable and content-neutral

App. 21
criteria. Because the state has not imposed a contentbased approach to the burden, or singled out the press
over other industries for differential treatment, strict
scrutiny is not the appropriate filter with which to
evaluate these regulations.
At the end of the day, we can conclude that, when
we look at expressive activities – whether pure speech,
press, or assembly – location matters. In scrutinizing restrictions to the other enumerated expressive
right, the right to assembly, the Supreme Court has
explained that “to ascertain what limits, if any, may be
placed on protected speech, we have often focused on
the ‘place’ of that speech, considering the nature of the
forum the speaker seeks to employ.” Frisby v. Schultz,
487 U.S. 474, 479 (1988) (upholding local ordinance
prohibiting protesting in front of an individual’s residence). This is why protests – one of the most protected forms of First Amendment rights – can be
barred from the floor of the United States Capitol
chambers but yet protected on the lawn outside. In
short, even for the most protected of First Amendment
activities, forum matters.
Because of MacIver’s theory that all press deserve
“equal access to events and information made generally available to the press corps,” (MacIver Brief
at 11), MacIver expends many words extolling the
credentials, professionalism, and skills of its two
“award-winning” reporters, Osmulski and Kittle. This
is not an argument that MacIver raised below, and
therefore we need not consider it. It is worth emphasizing, however, that First Amendment rights do not

App. 22
turn on, nor are they calibrated to, the quality of the
reporting. Imagine a system where the government
doled out the freedom of press based on a government
official’s assessment of the quality of the reporting or
the credentials of the reporters. See Lund v. City of
Rockford, Illinois, 956 F.3d 938, 941 n.1 (7th Cir. 2020)
(“We note that First Amendment protection does not
depend on the quality of the news source or the wages
of the reporter.”). The protections of the First Amendment extend not just to the traditional press embodied
by newspapers, television, books, and magazines, “but
also humble leaflets and circulars,” which were meant
to play an important role in the discussion of public
affairs. Mills v. State of Ala., 384 U.S. 214, 219 (1966).
Protecting the right of small, upstart, and nonobjective media producers, however, does not mean
that the Governor of Wisconsin must grant every
media outlet access to every press conference. We
cannot fathom the chaos that might ensue if every
gubernatorial press event had to be open to any
“qualified” journalist with only the most narrowly
drawn restrictions on who might be excluded. And no
one’s needs would be served if the government were
required to allow access to everyone or no one at all.
MacIver appears to have abandoned its equalprotection claim. Although MacIver’s Statement of
the Issues asserts that its “equal access” among members of press argument is rooted in both the First
Amendment and the Fourteenth Amendment’s equalprotection clause, MacIver does not develop this
argument other than listing a string cite of cases of

App. 23
out-of-circuit, 35-to-70-year-old cases in which the
court placed the right to access by press in the equalprotection clause. We find that MacIver has waived its
equal-protection argument, which, in any event, it
describes as “coterminous” with its First Amendment
claim. MacIver Reply Brief at 3, n.1. A party who does
not sufficiently develop an issue or argument forfeits
it. Scheidler v. Indiana, 914 F.3d 535, 540 (7th Cir.
2019).
In closing, it is worth reiterating the importance
that this court and the Supreme Court have placed on
newsgathering and its fundamental role in allowing
citizens “to see, examine, and be informed of their
government,” not just for its own sake but so as to
enable citizens to form their own judgments on
matters of public concern and choose qualified representatives. Am. Civil Liberties Union of Illinois v.
Alvarez, 679 F.3d 583, 599-600 (7th Cir. 2012). “The
press serves and was designed to serve as a powerful
antidote to any abuses of power by governmental
officials and as a constitutionally chosen means for
keeping officials elected by the people responsible to all
the people whom they were selected to serve.” Mills,
384 U.S. at 219. We therefore look carefully at any
claim that a government entity is disallowing access to
the media or a particular subset thereof. This does not
mean, however, that members of the press have special
access to newsgathering and must be exempt from
laws and rules of general application. ACLU, 679 F.3d
at 598. Nor does it mean that we must disallow a
government’s set of viewpoint-neutral criteria simply

App. 24
because we can imagine a superior system of allocation. The Governor’s office has created neutral laws
of general application and MacIver has not shown any
evidence that it was excluded based on its viewpoint.
As a result, the district court’s grant of summary
judgment for the Governor must be AFFIRMED.

App. 25
-----------------------------------------------------------------------

APPENDIX B
-----------------------------------------------------------------------

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WISCONSIN
No. 19-cv-649-jdp
(Filed April 14, 2020)
)
)
)
)
Plaintiffs,
)
)
v.
)
TONY EVERS, in his official capacity
as Governor of the State of Wisconsin, )
)
Defendant.
)
JOHN K. MACIVER INSTITUTE
FOR PUBLIC POLICY and
WILLIAM OSMULSKI,

ORDER
At plaintiffs’ request, Dkt. 28, the court consolidated plaintiffs’ motion for preliminary injunction
with a decision on the merits as provided by Federal
Rule of Civil Procedure 65(a)(2), effectively converting
plaintiffs’ motion into one for summary judgment. The
court denied the consolidated motion, concluding that
plaintiffs had adduced no evidence that defendant
Tony Evers violated their First or Fourteenth Amendment rights in denying them access to his limitedaccess press events. Dkt. 30. The court asked plaintiffs

App. 26
to show cause why it shouldn’t grant summary judgment to Evers under Rule 56(f ).
In response, plaintiffs now ask the court to permit
them to file a motion for summary judgment that (1)
develops legal arguments about who counts as “the
press” (on the theory that the question should hinge
on the individual journalist rather than the entity
that employs him); and (2) develops the factual record
about the extent of the MacIver News Service’s newsgathering activities and its role within its parent
organization, the MacIver Institute. Dkt. 31.
The court will deny plaintiffs’ request. When
plaintiffs asked to consolidate the decision on the
preliminary injunction with a decision on the merits,
they signaled that they had gathered and presented all
the evidence that they deemed pertinent to the merits
of their claims. See Proimos v. Fair Auto. Repair, Inc.,
808 F.2d 1273, 1277-78 (7th Cir. 1987) (“Rule 65(a)(2)
allows a judge to consolidate the hearing of a motion
for preliminary injunction with the trial on the merits,
but he may do this only if the parties consent or if they
receive timely notice allowing them to gather and
present all the evidence that would be pertinent at a
trial on the merits.”). It would be unfair to give the
plaintiffs a do-over because they don’t like the court’s
decision on the merits.
The decisive issue in this case is whether Evers
has, and uses, reasonable, viewpoint-neutral criteria
for granting press credentials. The undisputed facts
show that he does. The application of the credentialing criteria will sometimes involve the exercise of

App. 27
judgment. Plaintiffs have adduced no evidence that
Evers has exercised that judgment unreasonably or to
disadvantage their viewpoint, so plaintiffs have no
constitutional grievance.
The court will grant summary judgment to Evers
under Rule 56(f ) for the reasons explained in its March
31, 2020 opinion. The court will direct the clerk of court
to enter judgment in Evers’s favor and close the case.
ORDER
IT IS ORDERED that:
1.

Summary judgment is GRANTED in favor of
defendant Tony Evers under Federal Rule of
Civil Procedure 56(f ).

2.

Plaintiffs’ request for leave to file a supplemental summary judgment motion, Dkt.
31, is DENIED.

3.

Plaintiffs’ claims are DISMISSED with prejudice.

4.

The clerk of the court is directed to enter
judgment in favor of defendant and close the
case.

Entered April 14, 2020
BY THE COURT
/s/
JAMES D. PETERSON
District Judge

App. 28
-----------------------------------------------------------------------

APPENDIX C
-----------------------------------------------------------------------

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WISCONSIN
No. 19-cv-649-jdp
(Filed March 31, 2020)
)
)
)
)
Plaintiffs,
)
v.
)
TONY EVERS, in his official capacity )
as Governor of the State of Wisconsin, )
)
Defendant.
)
JOHN K. MACIVER INSTITUTE
FOR PUBLIC POLICY and
WILLIAM OSMULSKI,

OPINION and ORDER
This case involves a dispute over credentials for
press conferences held by Governor Tony Evers. Plaintiffs contend that they have a First Amendment right
to press credentials, but that Evers withholds credentials because of plaintiffs’ conservative viewpoint.
Plaintiffs seek no damages; they ask only that the
court order Evers to grant them access to his press
conferences.
Plaintiffs moved for a preliminary injunction.
Dkt. 6. The case calls for a straightforward application

App. 29
of public forum doctrine, as articulated in Perry Ed.
Assn. v. Perry Local Educators’ Assn., 460 U.S. 37
(1983) and cases following it. An Evers press conference is a non-public forum, to which Evers may restrict
access using reasonable, viewpoint-neutral criteria.
After this suit was filed, Evers adopted press credentialing criteria based on those used by Congress
and the Wisconsin Legislature. The court is not persuaded by plaintiff ’s argument that these criteria, or
Evers’s expressed interest in “fair and unbiased reporting,” embody any viewpoint discrimination. Nor is the
court persuaded that Evers has applied these criteria
in a discriminatory way.
While the motion for preliminary injunction was
under advisement, plaintiffs moved under Rule
65(a)(2) to consolidate the decision on the injunction
with a decision on the merits, effectively converting the
motion to one for summary judgment. Dkt. 28. Plaintiffs state that the material facts are undisputed; the
court will grant the motion to consolidate. (Because the
court is denying plaintiffs’ request for an injunction,
there is no prejudice to Evers, so there is no need to
wait for a response from Evers on the motion to consolidate.) For reasons explained more fully below, plaintiffs’ consolidated motion for preliminary injunction
and for summary judgment is denied.
BACKGROUND
The following facts are drawn from plaintiffs’ proposed findings of fact and Evers’s responses to them,

App. 30
Dkt. 16, as well as from the parties’ declarations and
exhibits. Neither side has requested a hearing, and the
material facts are not disputed.
The first plaintiff, the MacIver Institute, describes
itself as “a Wisconsin-based think tank that promotes
free markets, individual freedom, personal responsibility and limited government.” Dkt. 9, ¶ 3. Plaintiffs provide little information about the activities of the
MacIver Institute other than the MacIver News Service, which “investigates and reports on what is happening in state and local institutions of government
across Wisconsin.” Id. ¶ 4. The second plaintiff is William Osmulski, the news director for the MacIver
Institute. Dkt. 8, ¶ 1. The president of the MacIver Institute, Brett Healy, describes it as “nonpartisan,” but
that is true only in the sense that it cannot lobby or
expressly endorse political candidates without jeopardizing its non-profit status. Its website (at www.maciverinstitute.com), where its news reporting can be
found, conveys consistently conservative political news
and opinion supportive of Republican politicians. The
court will refer to the plaintiffs together as “MacIver,”
unless its necessary to identify them separately.
Tony Evers is the governor of Wisconsin, a Democrat elected in November 2018. Evers regularly participates in events where he answers questions from
journalists. These events fall into four categories, described below in order of increasing exclusivity. See
also Dkt. 15 (declaration from Evers’s deputy chief of
staff ).

App. 31
The first category consists of “public events.” Public events are open to all members of the public, including journalists. Sometimes public events include a
“press avail” component where Evers will answer questions from journalists. Evers does not restrict who attends public events, and MacIver does not object to
Evers’s handling of public events.
The second category consists of traditional “press
conferences.” Attendance at press conferences is necessarily limited for capacity and security. Journalists are
typically informed of press conferences through the
“media advisory email list” maintained by Evers’s communication department. To attend a press conference,
journalists on the media advisory email list must submit an RSVP to the communication department. MacIver’s main objection in this case is that it is not
included on the media advisory email list, and thus its
journalists are not invited to press conferences.
The third category consists of “press briefings,”
which are off-the-record events to provide background
on significant initiatives before they are announced to
the public. Attendance at press briefings is by specific
invitation only. Invitations go to a selected sub-set of
the media advisory list—typically journalists who
have a particularly substantial readership or viewership or a relevant subject matter specialty. (MacIver
does not separately discuss press briefings in its motion for preliminary injunction, but the court assumes
that MacIver believes it is entitled to be on the media
advisory list, and that as a result it would get some
invitations to press briefings as well.)

App. 32
The fourth category includes “one-on-one meetings” with journalists. MacIver acknowledges that
Evers can grant exclusive interviews to specific journalists without violating the rights of other journalists.
MacIver does not object to Evers’s handling of one-onone meetings with the press.
The dispute that led to this lawsuit arose shortly
after Evers took office in January 2019. Osmulski requested that MacIver journalists be added to the media email advisory list, but Evers’s staff didn’t respond
to the request. On February 28, the governor’s office
hosted an invitation-only press briefing to preview the
2019-2020 executive budget before its public release.
Osmulski heard about the press briefing second-hand,
and he emailed Evers’s press staff to RSVP for himself
and another MacIver journalist. But when Osmulski
and his colleague arrived at the briefing, they were told
that they weren’t on the RSVP list and were turned
away. Other journalists were also turned away that
day.
Over the next few weeks, Osmulski complained,
without success, to Evers’s staff about being excluded
from press conferences and press briefings. In May,
counsel for MacIver made a public-records request for
documents or communications related to any “neutral
criteria the Communications Department of the Governor’s Office uses to determine which journalists are
allowed access to briefings or other events.” Dkt. 7-6,
at 2. The governor’s office produced some responsive
documents on June 20, but it withheld records that it
considered privileged attorney-client communications,

App. 33
including records about its press-access criteria. Dkt.
17-1.
Six days later, on June 26, the governor’s office of
legal counsel circulated an internal memorandum to
the communications department, providing “guidance
for determining how and when media is granted access
to the Governor for exclusive/limited-access events.”
Dkt. 15-1, at 1. The media memorandum stated that
the “most important consideration is that access is
based on neutral criteria.” It advised the communications staff that in response to requests for access, communication staff should consider the following nonexhaustive factors:
1.

Is the petitioner employed by or affiliated
with an organization whose principal business is news dissemination?

2.

Does the parent news organization meet the
following criteria?
a.

It has published news continuously for at
least 18 months, and;

b.

It has a periodical publication component
or an established television or radio presence.

3.

Is the petitioner a paid or full-time correspondent, or if not, is acting on behalf of a
student-run news organization affiliated with
a Wisconsin high school, university, or college?

4.

Is the petitioner a bona fide correspondent of
repute in their profession, and do they and

App. 34
their employing organization exhibit the following characteristics?

5.

a.

Both avoid real or perceived conflicts of
interest;

b.

Both are free of associations that would
compromise journalistic integrity or damage credibility;

c.

Both decline compensation, favors, special treatment, secondary employment,
or political involvement where doing so
would compromise journalistic integrity;
and

d.

Both resist pressures from advertisers,
donors, or any other special interests to
influence coverage.

Is the petitioner or its employing organization
engaged in any lobbying, paid advocacy, advertising, publicity or promotion work for any
individual, political party, corporation or organization?

Id. A footnote explained that the factors were drawn
from the press-access standards used by the Wisconsin
Capitol Correspondents Board and the United States
Congress. See id. at 1, n.1.
Evers’s original media advisory list was apparently based on the one used during his campaign for
the governorship. In the months following the circulation of the media memorandum, the communications
department made substantial changes to the media
advisory email list to reflect the criteria. Compare Dkt.

App. 35
7-1 (original list), with Dkt. 15-2 (current list). Recipients affiliated with the Democratic Party of Wisconsin
and other political organizations were removed from
the list.
The media memorandum was not made available
to MacIver, so MacIver didn’t know the basis for the
administration’s refusal to include its journalists on
the list. In August, MacIver and Osmulski filed this
suit, asserting claims under the First and Fourteenth
Amendments and moving for a preliminary injunction.
MacIver learned about the administration’s media criteria and the updated media advisory email list for the
first time when Evers included them with his brief in
opposition to the motion for preliminary injunction.
Evers says that MacIver journalists are excluded from
the media advisory email list under its press-access
criteria because MacIver is not principally a news organization. According to Evers, the MacIver Institute
is a think tank with an affiliated news service that
makes no effort to distinguish the work of the news
service from the overall advocacy-focused mission of
the think tank.
ANALYSIS
MacIver asserts three claims in its complaint:
(1) a First Amendment equal-access claim premised
on the theory that any denial of press access is subject
to strict scrutiny; (2) a First Amendment viewpoint discrimination claim; and (3) a Fourteenth Amendment
equal protection claim. MacIver does not ask for

App. 36
damages; it seeks only declaratory and injunctive relief, including an injunction enjoining Evers from excluding MacIver journalists from press conferences
and press briefings.
A.

Preliminary injunction and summary judgment standards

The court evaluates MacIver’s motion for preliminary injunction under the familiar two-part framework. First, the plaintiff must make three threshold
showings: (1) it will suffer irreparable harm before a
final resolution of the merits; (2) traditional legal remedies are inadequate; and (3) there is some likelihood
of success on the merits of the claim. HH-Indianapolis,
LLC v. Consol. City of Indianapolis and Cty. of Marion,
889 F.3d 432, 437 (7th Cir. 2018). Second, if the plaintiff
makes the threshold showings, the court assesses the
competing harms and the interests of the public in
light of the plaintiff ’s chances of success. Id. Preliminary injunctions that require an affirmative act by the
defendant, instead of merely restraining action, are
“ordinarily cautiously viewed and sparingly issued.”
Graham v. Med. Mut. of Ohio, 130 F.3d 293, 295 (7th
Cir. 1997) (citation omitted).
Summary judgment is appropriate only if there is
no genuine dispute as to any material fact. Fed. R. Civ.
P. 56(a). In ruling on a motion for summary judgment,
the court views all facts and draws all inferences in the
light most favorable to the non-moving party. Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 255 (1986).

App. 37
Summary judgment will not be granted unless “the
record taken as a whole could not lead a rational trier
of fact to find for the non-moving party.” Sarver v.
Experian Info. Sols., 390 F.3d 969, 970 (7th Cir. 2004)
(quoting Matsushita Elec. Indus. Co. v. Zenith Radio
Corp., 475 U.S. 574, 586-87 (1986)). The court agrees
with MacIver that the material facts are undisputed,
so it’s efficient to consider the motion as one for summary judgment. But, for the reasons that follow, the
court concludes that MacIver is not entitled to judgment as a matter of law.
B.

Irreparable harm and adequacy of legal
remedies

MacIver contends that its journalists suffer irreparable harm every day that they are excluded from
Evers’s limited-access press events. Because they are
excluded, MacIver journalists must rely on the reporting of others and on after-the-fact press releases to
cover the Evers administration. They have no opportunity to ask questions at press conferences or briefings. These are types of First Amendment harms that
have been deemed to be irreparable. See Karem v.
Trump, No. CV 19-2514, 2019 WL 4169824, at *10
(D.D.C. Sept. 3, 2019) (temporary suspension of journalist’s White House press pass “undoubtedly constitutes a concrete, unrecoverable harm sufficient to
warrant preliminary relief ”); see also Elrod v. Burns,
427 U.S. 347, 373 (1976) (plurality opinion) (“The
loss of First Amendment freedoms, for even minimal

App. 38
periods of time, unquestionably constitutes irreparable
injury.”).
Traditional legal remedies would be inadequate.
As in many cases involving restrictions on First
Amendment rights, “the quantification of injury is difficult and damages are therefore not an adequate remedy.” Am. Civil Liberties Union of Ill. v. Alvarez, 679
F.3d 583, 589 (7th Cir. 2012) (citations and internal
quotation marks omitted); see also Karem, 2019 WL
4169824, at *10 (“[T]he only way to remedy the injury
is to return the [press] pass and the access that comes
with it”).
In cases implicating the First Amendment, the
plaintiffs “likelihood of success on the merits will often
be the determinative factor.” Higher Soc’y of Indiana v.
Tippecanoe Cty., Ind., 858 F.3d 1113, 1116 (7th Cir.
2017) (citation omitted). That’s the case here. MacIver
has made the requisite showings of irreparable harm
and inadequacy of traditional legal remedies; the court
turns to the merits. The material facts are undisputed,
so from this point on, the analysis of the motion for
preliminary injunction coincides with the evaluation of
the motion for summary judgment.
C.

Evaluation on the merits
1. Legal framework for press-access claims

Claims challenging government-imposed restrictions on access to government property or events have
been generally governed by public forum doctrine,

App. 39
which establishes a framework for analyzing such restrictions based on the type of government property or
event at issue. See Perry Educ. Ass’n, 460 U.S. at 44.
“Traditional public forums,” such as public streets or
parks, are places open to anyone where citizens are
traditionally free to speak without governmental approval or interference. Speakers cannot be excluded
from a traditional public forum without a compelling
government interest. Cornelius v. NAACP Legal Def. &
Educ. Fund, Inc., 473 U.S 788, 800 (1985). A compelling
government interest is also required to justify exclusions from “designated public forums,” such as public
theaters or other venues that the government has designated as a place for or a means of communication. Id.
But in “nonpublic forums,” access may be restricted “as
long as the restrictions are reasonable and are not an
effort to suppress expression merely because public officials oppose the speaker’s view.” Id. (citations, quotation marks, and alterations omitted).
Public forum analysis has three steps. First, the
court must decide whether the activity in which MacIver seeks to engage is protected by the First Amendment. Cornelius, 473 U.S. at 797. Here, there is no
dispute that it is. See Alvarez, 679 F.3d at 597-600
(“[T]he First Amendment provides at least some degree of protection for gathering news and information,
particularly news and information about the affairs of
the government”).
Second, the court must assess whether the forum
at issue is public or nonpublic, to determine the appropriate level of constitutional scrutiny. Cornelius, 473

App. 40
U.S. at 800. Evers contends that his press conferences
and press briefings are nonpublic forums because he
makes them available only to the select journalists
who meet his access criteria. MacIver doesn’t address
this question. MacIver does not argue that the court
should consider Evers’s press events to be “designated
public forums” that Evers has “opened up for expressive activity by part or all of the public.” International
Soc. for Krishna Consciousness, Inc. v. Lee, 505 U.S. 672,
678 (1992). Evers’s limited-access press events do not
qualify as designated public forums under the Supreme Court’s definition. See Arkansas Educ. Television Comm’n v. Forbes, 523 U.S. 666, 679 (1998) (“A
designated public forum is not created when the government allows selective access for individual speakers rather than general access for a class of speakers.”).
So the court concludes that Evers’s limited-access
press conferences and press briefings are nonpublic
forums.
At the third step of the public forum analysis, the
court must assess the access restrictions under the appropriate level of scrutiny, in this case the standard applicable to nonpublic forums. For a nonpublic forum,
the question is whether the restrictions are (1) reasonable and (2) not an effort to suppress an opposing viewpoint. Cornelius, 473 U.S. at 800.
With that general framework in mind, the court
turns to MacIver’s three constitutional claims.

App. 41
2. MacIver’s First Amendment equal-access
claim
MacIver says that the First Amendment’s free
press clause “includes a right of equal access for all
journalists to information or events made generally
available to the press corps.” Dkt. 7, at 9.
MacIver contends that public forum analysis is
relevant only for determining when a “speaker may
speak” on government property, not for questions
about press access, which MacIver says are always
subject to strict scrutiny. Dkt. 19, at 2. For this proposition MacIver relies principally on Sherrill v. Knight,
569 F.2d 124 (D.C. Cir. 1977). Sherrill involved a correspondent for The Nation magazine who was denied a
White House press pass for unspecified reasons, which
were later identified as related to security. The court
concluded that the denial of a press pass to a bona fide
Washington correspondent must be based on a compelling government interest, and that it would require notice, an opportunity to rebut, and a written decision.
Id. at 130. The analysis in Sherrill did not invoke public forum doctrine, but that isn’t surprising because
Sherrill predates Cornelius and Perry, the cases that
established modern forum doctrine. In any case, the
Sherrill court did not hold that governmental presscredentialing is subject to strict scrutiny. To the contrary, the court concluded that the Constitution did not
require “the articulation of detailed criteria upon
which the granting or denial of White House press
passes is to be based.” Id. at 128. MacIver doesn’t cite

App. 42
any more recent authority for its contention that presscredentialing is subject to strict scrutiny.
Contrary to MacIver’s central argument, courts
now routinely analyze press-access issues under public
forum doctrine following Cornelius and Perry. See, e.g.,
Youngstown Pub. Co. v. McKelvey, No. 4:05 CV 00625,
2005 WL 1153996, at *6 (N.D. Ohio May 16, 2005) (applying public forum doctrine in newspaper’s challenge
to mayor’s policy forbidding city employees from speaking with newspaper’s reporters), opinion vacated on
other grounds, appeal dismissed sub nom. Youngstown
Publ’g Co. v. McKelvey, 189 F. App’x 402 (6th Cir. 2006);
Telemundo of Los Angeles v. City of Los Angeles, 283
F. Supp. 2d 1095, 1101-02 (C.D. Cal. 2003) (applying
public forum doctrine in analyzing denial of equal access to a television broadcast corporation seeking to
broadcast a public ceremony); Getty Images New Servs.
Corp. v. Dep’t of Def., 193 F. Supp. 2d 112, 119 (D.D.C.
2002) (applying public forum doctrine in analyzing
photojournalism company’s claim that the government
had denied it equal access to the detention facilities at
Guantanamo Bay).
The court concludes that MacIver is not likely to
prevail on its First Amendment equal access claim and
is not entitled to summary judgment on that claim.
3. First Amendment viewpoint discrimination claim
Properly framed, MacIver’s First Amendment
claim is that it is a victim of viewpoint discrimination.

App. 43
This calls for an evaluation of restrictions placed on a
non-public forum, so the question is whether Evers’s
press-credentialing process is (1) reasonable and (2)
viewpoint neutral.
a. Reasonableness of press credential
criteria
The government may restrict access to a non-public forum on the basis of “subject matter and speaker
identity” so long as the restrictions are consistent with
the purpose of the forum and do not discriminate on
the basis of viewpoint. Cornelius, 473 U.S. at 806. The
government interests need not be compelling ones. Id.
at 809.
The court begins with Evers’s proffered interests,
which implicitly articulate the purpose of the forum at
issue. Evers says that its press-access criteria are intended to serve two interests: (1) limiting attendance
for space constraints; and (2) ensuring that those in attendance are established, bona fide journalists who
will (a) maximize the public’s access to newsworthy
information and (b) be more likely to abide by professional journalistic standards, such as honoring embargoes and respecting the distinction between on-and
off-the-record communications. These interests apply
to both press conferences and press briefings. Because
MacIver does not separately address them, the court
will consider them together.
Evers’s interest in addressing space constraints is
manifestly reasonable, even though Evers does not say

App. 44
specifically how many journalists can be accommodated at the capitol. And even if the space used for
press conferences and briefings were not filled to capacity, it would be reasonable to limit attendance to
some number that would afford those in attendance a
reasonable opportunity to ask questions. MacIver
doesn’t dispute that Evers has a legitimate interest in
controlling press access for space or security concerns,
and MacIver does not challenge Evers’s credentialing
process on this ground.
Evers’s interest in audience impact and journalistic ethics are also legitimate concerns. To facilitate
greater public access to newsworthy information,
Evers includes criteria nos. 1, 2, and 3, designed to
gauge journalistic impact, favoring journalists from organizations that (1) focus principally on news dissemination, (2) have published news continuously for at
least 18 months and maintain periodical or established
television or radio components, and (3) employ professional journalists (or student journalists working for
student-run publications). These criteria are reasonably related to the goal of making sure that the journalists who attend press conferences and briefings will
reach larger audiences. MacIver does not dispute the
legitimacy of Evers’s interest in journalistic impact or
dispute that these criteria are reasonably related to
that interest.
Evers also includes criteria nos. 4 and 5, which
concern journalistic integrity. Criterion no. 4 favors
journalists and organizations who avoid real or perceived conflicts of interests, entanglement with special

App. 45
interest groups, and other associations that might
compromise journalistic integrity. Criterion no. 5 addresses the independence of the journalist from groups
that engage in lobbying or advocacy. These criteria
are based on standards used by other governmental
bodies—Congress and the Wisconsin legislature—and
they reflect longstanding, well-established norms. The
court concludes that these criteria reflect reasonable
efforts to advance a legitimate government objective.
b. Viewpoint neutrality of press credential criteria
Evers’s press-credentialing criteria are, at least as
stated, viewpoint neutral. There is nothing about these
traditional indicia of journalistic impact and integrity
that favors one part of the political spectrum over another. MacIver does not contend otherwise.
MacIver’s main argument is that the criteria are
subjective, which vests broad discretion in Evers’s
staff, who apply the credentialing criteria unfairly, to
the detriment of journalists with conservative viewpoints. MacIver relies primarily on three sets of comparators to demonstrate viewpoint discrimination.
First, MacIver contends that viewpoint discrimination may be inferred from the presence of three leftleaning outlets on the media advisory email list: The
Progressive; The Capital Times; and The Devil’s Advocates Radio, a liberal talk-radio show. But MacIver
does not dispute that these three outlets are principally in the business of disseminating news and thus

App. 46
meet a threshold criterion that MacIver doesn’t. As
Evers points out, the media advisory email list includes several outlets that are widely viewed as conservative, including The Washington Times, Fox News,
and The Wall Street Journal. MacIver argues that
these are national outlets that are unlikely to send
journalists to cover Evers’s press conferences. But
that’s not Evers’s choice, and MacIver hasn’t identified
any local conservative media outlets that meet the credentialing criteria whose journalists have been excluded from the media advisory email list.
Second, MacIver contends that viewpoint discrimination can be inferred from the inclusion of comparators that are affiliated with organizations that engage in
lobbying and advocacy activity. For instance, MacIver
notes that the editors of two tribal newspapers—Menominee Nation News and Kalihwisaks (sponsored by
the Oneida Nation)—are included on the list, even
though both tribes are registered to lobby in Wisconsin.
MacIver also cites WUWM (a public radio station operated by the University of Wisconsin-Milwaukee) and
Wisconsin Public Television, both of which are on the
list, even though both are affiliated with the University of Wisconsin Board of Regents, which retains legislative liaisons who engage in paid advocacy on behalf
of the university system. MacIver says that many
other entities on the list regularly engage in “lobbying”
or “political advocacy” if those terms are defined as
broadly as they have been applied to MacIver.
These are not helpful comparators because the
media outlets are substantively independent from

App. 47
their parent organizations. Wisconsin Public Television, for example, operates as part of the University of
Wisconsin and is thus under the auspices of the Board
of Regents. But Wisconsin Public Television is not directly controlled by or funded exclusively by the Board
of Regents. The Menominee Nation News may be affiliated with the tribe, and the tribe itself may engage in
policy advocacy, but the Menominee Nation News functions as a stand-alone news organization. The relationship between these media outlets and their affiliated
entities is nothing like the close connection between
the MacIver Institute and the journalists who create
content for its website.
Third, MacIver points out that some credentialled
publications, such as the Milwaukee Journal Sentinel
and the Wisconsin State Journal run editorials endorsing candidates in political races. And the media advisory email list includes many opinion journalists,
columnists, and radio show hosts who regularly endorse causes, candidates, and legislation. Publishing
editorials and endorsements does not disqualify an
outlet under traditional standards of journalistic integrity, so long as the opinion staff and the news staff
are separated. Again, MacIver has not demonstrated
any separation between the ideological mission of the
think tank and its news organization.
Fourth, MacIver contends that if Evers is serious
about including only organizations whose “principal
business” is “news dissemination,” he should exclude
journalists affiliated with most broadcast television
networks and radio stations. After all, NBC, ABC, and

App. 48
CBS spend more time broadcasting sports and entertainment than news shows, and some of the radio stations on the media advisory email list dedicate more
airtime to music than to news coverage. This is a variation on the argument made against Wisconsin Public
Television, and it is based again on an overly expansive
notion of “organization.” The media advisory email list
includes television and radio reporters who work for
established news organizations, which in some cases
are part of a larger media enterprise. Nothing in this
supports the argument that Evers’s press-credentialing process demonstrates viewpoint discrimination.
A truly relevant comparator would be a journalist
from another think tank or advocacy group who is nevertheless included on the media advisory email list.
For example, it would be probative of viewpoint discrimination if Jason Stein of the Wisconsin Policy Forum were on the list, because it would demonstrate
that Evers includes journalists from some think tanks
but not others. But Stein, a highly experienced journalist, isn’t on the list and he was excluded from Evers’s
press briefing on February 28, 2019, despite his express request to be included. See Dkt. 15-4. Stein’s
affiliation with a think tank rather than a journalistic enterprise resulted in his being treated just as
Osmulki was treated.
None of the comparators that MacIver has identified raise an inference that Evers’s press-access criteria have any viewpoint discriminatory effect. And
without evidence of discriminatory effect, MacIver
cannot prevail on its First Amendment claims. See

App. 49
Grossbaum v. Indianapolis-Marion Cty. Bldg. Auth.,
100 F.3d 1287, 1299 (7th Cir. 1996) (“[I]t is th[e] unconstitutional effect that ultimately matters.”).
MacIver contends that it employs experienced
journalists, and it is nonpartisan, not registered to
lobby, and does not (and cannot) endorse political candidates. The court agrees that its journalists, including
plaintiff Osmulski, have sufficient professional experience to make them credible state capitol correspondents. But their personal credentials have never been
the problem. Evers has reasonably concluded that
MacIver is not a bona fide news organization. MacIver
publicly brands itself as a think tank committed to ideological principles. It engages in policy-driven political
advocacy, including advocating for specific initiatives
and policy approaches. It has a “news” tab on its website, but it does not maintain a news-gathering organization separate from its overall ideological mission. It
stands on the same footing as the Wisconsin Policy Forum.
Much of MacIver’s opening brief, Dkt. 7, is devoted
to showing that Evers is motivated to discriminate
against MacIver’s conservative viewpoint. And in its
reply brief, Dkt. 19, at 3-4, MacIver contends that
Evers’s expressed interest in a “fair and unbiased
press corps,” Dkt. 7, at 12, demonstrates his intent to
censor journalists that he thinks are unfair and biased.
The court assumes that Evers would prefer favorable
press coverage, and that as a Democrat, he would be
less inclined to appreciate the work of the MacIver
Institute than his Republican predecessor. But Evers’s

App. 50
personal or political motives are simply not material:
it only matters that he has reasonable, viewpoint neutral criteria for granting access to his press conferences
and press briefings. See Grossbaum, 100 F.3d at 1293
(“We are governed by laws, not by the intentions of
legislators. Just as we would never uphold a law with
unconstitutional effect because its enactors were benignly motivated, an illicit intent behind an otherwise
valid government action indicates nothing more than
a failed attempt to violate the Constitution.” (citation
and internal quotation marks omitted)).
MacIver has adduced no evidence that Evers
grants or denies press access unreasonably or on the
basis of the journalist’s viewpoint. The court concludes
that MacIver will not succeed on its First Amendment
viewpoint discrimination claim and is not entitled to
summary judgment on that claim.
4. Equal protection claim
MacIver’s Fourteenth Amendment equal protection claim repackages its First Amendment claims. The
court has already concluded that MacIver will not succeed under the First Amendment. Because MacIver
hasn’t shown that Evers’s criteria infringes on a fundamental right, MacIver is not entitled to heightened
review under the Equal Protection Clause. See Perry
Educ. Ass’n, 460 U.S. at 54 (concluding that the entitlement-to-access argument that the Supreme Court rejected under the First Amendment “fares no better in
equal protection garb”); Lyng v. Int’l Union, United

App. 51
Auto., Aerospace & Agr. Implement Workers of Am.,
UAW, 485 U.S. 360, 370 (1988) (where a statute has no
substantial impact on a fundamental interest, the classification does not garner heightened scrutiny under
the Equal Protection Clause).
Accordingly, in deciding MacIver’s equal protection claim, the court evaluates Evers’s press-access criteria under the deferential rational basis standard. See
Goodpaster v. City of Indianapolis, 736 F.3d 1060, 1071
(7th Cir. 2013). The press-access criteria easily survive
rational-basis review, for the reasons explained above.
The press-access criteria are reasonably related to
Evers’s asserted interests in accounting for space constraints, maximizing public access to information, and
upholding journalistic standards. So the court concludes that MacIver will not succeed on its equal protection claim either.
D.

Balance of hardship

Given the court’s decision on the merits, the court
will not consider the balance of harms at great length.
MacIver says that the harms associated with its continued exclusion from the media advisory list are substantial, both to MacIver and its journalists and to the
public at large, and that any hardship on Evers would
be negligible because complying with an injunction
would require nothing more than adding a few names
to a listsery or setting out a few extra chairs at a press
conference. Evers takes a broader view of the implications of an injunction. He contends that if he is ordered

App. 52
to grant access to MacIver, there will be no limiting
principle by which he could restrict media access at all.
The court is persuaded that on balance, the harms
of granting an injunction would outweigh the harms of
maintaining the status quo. MacIver journalists won’t
have access to press conferences and briefings, but
there is nothing to stop them from continuing to publish stories about Evers and his administration. But
ordering Evers to grant access to MacIver journalists
would establish an untenable precedent. Any citizen
journalist could make the same case MacIver has
made, forcing Evers to either permit unrestricted access at every event or forego press events altogether.
Under these circumstances, the balance of harms tips
against an injunction.
E.

Conclusion

The court concludes that the material facts are undisputed, but that the law supports Evers, not MacIver.
Accordingly, the court will give MacIver ten days to
show cause why summary judgment should not be
granted to Evers.
ORDER
IT IS ORDERED that:
1.

Plaintiffs’ motion to consolidate the decision
on the preliminary injunction with a decision
on the merits under Federal Rule of Civil Procedure 65(a)(2), Dkt. 28, is GRANTED.

App. 53
2.

Plaintiffs’ motion for preliminary injunction,
Dkt. 6, is DENIED.

3.

Plaintiffs must respond to the court’s Rule
56(f ) notice by April 10, 2020, showing why
the court should not grant summary judgment against them on all claims.

Entered March 31, 2020.
BY THE COURT
/s/
JAMES D. PETERSON
District Judge

App. 54
-----------------------------------------------------------------------

APPENDIX D
-----------------------------------------------------------------------

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WISCONSIN
No. 19-cv-649-jdp
(Filed August 20, 2019)
)
)
)
)
Plaintiffs,
)
)
v.
)
TONY EVERS, in his official capacity
as Governor of the State of Wisconsin, )
)
Defendant.
)
JOHN K. MACIVER INSTITUTE
FOR PUBLIC POLICY and
WILLIAM OSMULSKI,

AFFIDAVIT OF WILLIAM (BILL) OSMULSKI
1.

I am the news director for the MacIver Institute.
I am a member of the Society of Professional
Journalists, Madison Chapter.

2.

I previously worked in television news in Milwaukee (2002-2005, CBS-58, sports editor), Eau Claire
(2005-2008, ABC-18, general assignment reporter),
and Madison (2008-2009, ABC-27, Rock County
bureau chief ).

3.

While a television news reporter, I won Wisconsin
Broadcasters Association awards in 2004 (first

App. 55
place for sports reporting, major market television) and in 2008 (second place for hard news/
investigative reporting, small market television).
While at the MacIver Institute, I was part of the
team that won Bronze in the Milwaukee Press
Club’s excellence in journalism awards for “Best
Long Hard Feature Story” (2018).
4.

I currently produce a weekly public-affairs program for WVCY-TV 30 in Milwaukee.

5.

When Governor Evers took office, I asked the
Governor’s press staff to include myself and my
MacIver News Service colleagues on any distributions lists they maintained for the news media.
I never received any media advisories in response
to this request.

6.

When the Governor’s Office held a press briefing
on February 28, 2019, in advance of the Governor’s
budget announcement, I did not receive prior
notification of the briefing from the Governor’s
press staff.

7.

MacIver did hear about it from other members of
the press corps, and pursuant to our colleagues’
suggestion, myself and Matt Kittle, then our investigative reporter, emailed the Governor’s press
office to RSVP for the briefing. We received no
response to our RSVP.

8.

When we went to the Governor’s Office suite
where the briefing was to be held, we were stopped
by staff and told we were not on the RSVP list.

9.

When we asked whom we could speak to in order
to be included, we were told that Melissa Baldauff,
the Governor’s communications director, was the

App. 56
responsible staff person but that she was not
available at that time, and that we should follow
up with her directly for access to future briefings
10. We were not permitted into the February 28, 2019,
budget briefing.
11. We subsequently contacted Baldauff but never got
a response.
12. We have never been ejected from a press conference with Governor Evers or any other public
official, and I am not aware of any of my MacIver
colleagues who have ever been ejected from a
press conference for being rude or disrespectful.
Pursuant to 28 U.S. Code § 1746, I declare under penalty of perjury that the foregoing is true and correct.
Executed on August ___, 2019
William (Bill) Osmulski, Affiant

App. 57
-----------------------------------------------------------------------

APPENDIX E
-----------------------------------------------------------------------

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WISCONSIN
No. 19-cv-649-jdp
(Filed August 20, 2019)
)
)
)
)
Plaintiffs,
)
)
v.
TONY EVERS, in his official capacity )
as Governor of the State of Wisconsin, )
)
Defendant.
)
JOHN K. MACIVER INSTITUTE
FOR PUBLIC POLICY and
WILLIAM OSMULSKI,

AFFIDAVIT OF BRETT HEALY
1.

I am president of the John K. MacIver Institute for
Public Policy, and have been since April 2009.

2.

The MacIver Institute is a 501(c)(3) nonpartisan,
nonprofit organization based in Madison, Wisconsin.

3.

The Institute distills its mission into the phrase:
“the Free Market Voice for Wisconsin. More formally, the John K. MacIver Institute for Public
Policy is a Wisconsin-based think tank that promotes free markets, individual freedom, personal
responsibility and limited government.

App. 58
4.

In order to achieve our mission, the Institute
undertakes several lines of work. Its MacIver
News Service investigates and reports on what is
happening in state and local institutions of government across Wisconsin. The Institute also produces real-time research and analysis on the
pressing issues of the day. Both the Institute overall and the News Service specifically work to make
government more transparent for the taxpayers.

5.

None of MacIver’s employees are registered to
lobby on any pending rules or legislation.

6.

In 2018, the MacIver Institute won a bronze award
in the “Excellence in Journalism” competition from
the Milwaukee Press Club for their long-form,
hard-news reporting.

7.

MacIver is credentialed by the Wisconsin State
Legislature to cover its activities.

8.

Neither our news director, William Osmulski, nor
any other past or current MacIver journalist has
ever been ejected from a press conference for being
disruptive or disrespectful.

Pursuant to 28 U.S. Code § 1746, I declare under penalty of perjury that the foregoing is true and correct.
Executed on August ___, 2019.
Brett Healy, Affiant

App. 59
-----------------------------------------------------------------------

APPENDIX F
-----------------------------------------------------------------------

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WISCONSIN
No. 19-cv-649-jdp
(Filed September 17, 2019)
)
)
)
)
Plaintiffs,
)
)
v.
)
TONY EVERS, in his official capacity
as Governor of the State of Wisconsin, )
)
Defendant.
)
JOHN K. MACIVER INSTITUTE
FOR PUBLIC POLICY and
WILLIAM OSMULSKI,

AFFIDAVIT OF MELISSA BALDAUFF
1. I am a Deputy Chief of Staff in the Office of
Governor Tony Evers (the “Office”). I lead the Office’s
communications department. I have held this position
since January 7, 2019.
2. In that capacity, I regularly coordinate communications between the Office and members of the
press.
3. The press generally has access to the Office in
four ways: (a) public events, (b) press conferences and

App. 60
other press-specific events, (c) press briefings, and (d)
one-on-one meetings with the Governor or staff.
Public Events
4. Some Office events are entirely open to the
public. These public events also can include press
availability, also known as a “press avail,” which is an
additional opportunity for press to ask questions
directly of the Governor or other Office staff, usually
after the publicly attended event.
5. One example of this is the Governor’s appearance at the opening ceremonies of the 2019 Wisconsin
State Fair, which included a press avail. Another
example is the budget listening sessions held across
the state, which included press avails.
6. Public events are announced in several different ways. One way of providing information to the
public is through social media channels. The Office
uses Facebook, YouTube, and Twitter to announce
public events. Anyone can follow the Governor on these
social media platforms. I am not aware of the Governor’s Office ever blocking any user or censoring public
comment on any of these platforms.
7. Press releases are another way the Office
alerts the public about upcoming public events. Anyone can sign up on the Office’s website (evers.wi.gov)
to receive press releases via email. Press releases are
delivered directly to requesters’ email accounts as soon
as the press release is issued.

App. 61
8. Additionally, if another agency, official, or
organization is the host of an event, they would
primarily handle the invitations or public notification.
Press Conferences and Other Press-Specific
Events
9. Press conferences and other press-exclusive
events serve to highlight different Governor initiatives
and to allow media to learn more about the Governor’s
plans or priorities so they can report back to the public.
These events also can include press avails.
10. An example of this type of event is the Governor’s tour of the University of Wisconsin Milwaukee
School of Freshwater Sciences, where the Governor
was invited to tour that facility, journalists were
present, and a press avail was held.
11. For these events, an open invitation to the
public is not practical. There are multiple reasons for
this: (a) space or capacity at the venue may be limited;
(b) security concerns for the Governor or other dignitaries in attendance; or (c) the venue may be private
property, with its own facility rules.
12. Also, some events implicate unique considerations, such as privacy concerns. For example, if
an appearance is at a healthcare facility, there are
likely additional privacy considerations that would
make unmanaged public invitation impossible.
13. One way that members of the media are
alerted to these types of events is via notification from

App. 62
our communications department, which maintains a
media advisory email list.
14. The media advisory email list is used to alert
a wide array of media representatives to different
events throughout the state, including press conferences, so that regardless of the location, there are local
media representatives notified of the opportunity for
press coverage. Attendees are asked to RSVP to the
Office’s communications department, which allows the
Office and security personnel to effectively plan and
prepare for the event.
15. The media advisory list is not the only way in
which the press may be alerted to media events
involving the Office. Depending on the type of event,
our office may directly reach out to members of the
press from a specific area of the state or those who tend
to cover a particular subject matter related to the
event.
16. Additionally, if another agency, elected official, or organization is the host of the event, they would
primarily handle invitations and monitor attendance.
For example, when legislative Democrats hosted a press
conference about Medicaid expansion, they handled
the invitations and media advisories.
17. Immediately after Governor Evers’s inauguration, our communications department compiled a
list of email recipients to serve as the Office’s media
advisory list. This list was built on a list of email
recipients put together during the campaign, which
is why some non-media individuals or groups were

App. 63
included on the list. This version of the media advisory
list – which is the version Plaintiffs attached to their
complaint – is no longer used.
18. In June 2019, the Governor’s Office of Legal
Counsel provided a memorandum outlining a set of
neutral factors for the communications department to
apply when determining whether a requester should
be added to the media advisory list or considered
“media” for purposes of access to any press-specific
events. The standards in the memorandum are based
on standards provided by the Wisconsin Capitol Correspondents Board, as adopted by the Wisconsin
Legislature, as well as standards set by the United
States Congress. A true and correct copy of this
memorandum is attached as Exhibit 1.
19. As a result of the guidance from the Office of
Legal Counsel, the list has substantially changed. A
true and correct copy of the media advisory list as of
September 17, 2019, is attached as Exhibit 2.
20. The current list includes numerous bona fide
journalists and news organizations, including outlets
usually perceived as “conservative leaning,” such as
the Washington Times, Wall Street Journal, and Fox
News, as well as others usually perceived as “liberal
leaning,” such as the Capitol Times, the New York
Times, and the Huffington Post.
21. The MacIver Institute, including its employees, do not qualify as bona fide press under our
adopted standards for press-specific events.

App. 64
22. The MacIver News Service and William
Osmulski are not included on the medial advisory list
and are not invited to press-specific events because
their practices run afoul of the neutral factors adopted
by our communications department.
23. The MacIver Institute is not principally a
news organization. On its website, the organization
characterizes itself as “a Wisconsin-based think tank
that promotes free markets, individual freedom, personal responsibility and limited government.” The
organization’s “news” branch makes no effort to distinguish itself from the overall organization mission.
See http://www.maciverinstitute.com/about-us/, last accessed on September 17, 2019.
24. In addition, based on my experience with
media and politics, it is my understanding that MacIver Institute engages in policy advocacy and lobbying.
For example, in June 2017, MacIver Institute joined
“44 other free market groups and individuals” in
urging the United States Senate to repeal all Obamacare taxes. See http://www.maciverinstitute.com/2017/
06/maciver-joins-45-conservative-groups-and-activistsurging-senate-to-repeal-all-obamacare-taxes/, last accessed
on September 17, 2019; see also https://www.wisgop.
org/2019-state-convention/ (Wisconsin GOP annual
convention; media panel with MacIver journalist
Matt Kittle discussing the “effective messaging techniques, and the issues that will motivate voters in
2020”).

App. 65
25. MacIver Institute’s political advocacy, lobbying activity, and status as a think tank demonstrate that MacIver Institute is not a bona fide press
organization under the standards adopted by the
Office.
26. Even before the issuance of guidance from
the Office of Legal Counsel, I did not grant MacIver
Institute’s request to be added to our media advisory list because even before formal guidance, the
communication department’s intent was to have a list
designed to include bona fide journalists.
27. Without some distinction between media and
non-media, the media advisory list would be virtually
indistinguishable from any public mailing list. The
distinction matters because bona fide journalists can
be expected to adhere to widely recognized professional
standards, such as honoring embargoes (which are
requests that provided information will not be made
public until a designated time) and respecting the
distinction between off-the-record and on-the-record
communications.
28. MacIver Institute is not the only organization that has not been added to the Office’s media
advisory list despite requests to be included. For example, the Wisconsin Examiner was denied inclusion
because the organization has not been established long
enough to meet the criteria.
29. The MacIver Institute’s self-described viewpoint is not the basis for its exclusion from the media
advisory list. Rather, the issue is that they do not

App. 66
meet the established standards designed to determine
whether a requester is a qualifying (i.e., bona fide)
media organization.
Press Briefings
30. The Office has also provided the opportunity
for smaller groups of media representatives to interact
with the Governor or staff in the form of a “briefing.”
These events are typically offered as a courtesy to
members of the press so that they might have additional background before the release of large-scale
initiatives. These are off-the-record events, which
means that the information provided is not intended
for public release or as an official representation or
statement.
31. An example of this type of small-scale event
is the 2019 budget briefing that occurred on February
28, 2019. That was an invitation-only event for a small
group of journalists. It was an opportunity to introduce
the Governor’s 2019-2020 Executive Budget in advance of public release so that invited journalists could
provide comprehensive press coverage contemporaneously with the budget’s public release. The Governor
was not present for that event. Rather, state employees
from the State Budget Office previewed the items.
32. Invitations for press briefings like this would
not go out via the media advisory list.
33. I am not aware of any similar briefing events
since the February 28, 2019, briefing.

App. 67
34. If the Office were to host future briefings,
invitees would not only have to meet the guidelines
underlying the media advisory list; they would also
have to have a readership or viewership that justifies
inclusion. While this is partially a matter of the size
of readership or viewership, we might also consider
additional factors, such as subject-matter specialty. For
example, a briefing on education issues might include
journalists from a university publication.
35. Additionally, outlets that routinely cover
capitol maters, including outlets that are on the Capitol Correspondents list, may be included. A true and
correct copy of the Capitol Correspondents list is
attached as Exhibit 3.
36. The Office does not determine who is included on the Capitol Correspondents list. It is my
understanding that the Capitol Correspondents list
is not necessarily the same as the larger listing of
individuals who have received press credentials from
the Legislature. The Office does not determine who is
given credentials to cover the Legislature.
37. The communications department did not
invite MacIver Institute to the February 28, 2019,
event. As such, they were not admitted, despite having
apparently learned about the event from invited
journalists.
38. Jason Stein, current Research Director of the
Wisconsin Policy Forum and former reporter for the
Milwaukee Journal Sentinel and Wisconsin State
Journal, similarly asked to attend that event and was

App. 68
denied admission because he is not a member of one of
the invited press organizations and is no longer
employed as a journalist. A true and correct copy of my
texts to and from Mr. Stein are attached as Exhibit 4.
One-on-one meetings
39. Finally, the Governor or his staff sometimes
grants a face-to-face interview with a reporter, just as
they may have meetings with members of the public,
advocacy organizations, and even registered lobbyists.
The difference with the former, as opposed to the latter,
is the shared understanding of the terms of the
meeting regarding journalist practices, such as embargos and the on-the-record/off-the-record distinction.
Pursuant to 28 U.S.C. § 1746, I declare under penalty
of perjury, under the laws of the United States, that
the foregoing is true and correct to the best of my
knowledge.
Dated this 17th day of September, 2019.
s/ Melissa Baldauff
MELISSA BALDAUFF

